BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Amicus Brief of
Christian Family Coalition (CFC) Florida, Inc. in
Support of Petitioners in 19-635, Donald J. Trump v.
Cyrus R. Vance, Jr., in His Official Capacity as District
Attorney of the County of New York, et al., 19-715,
Donald J. Trump, et al. v. Mazars USA, LLP, et al., 19760, Donald J. Trump, et al. v. Deutsche Bank AG, et
al., were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 3rd day of February, 2020:
Jay Alan Sekulow
Constitutional Litigation and Advocacy Group, P.C.
1701 Pennsylvania Ave, NW, Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw .com

Counsel for Petitioner
Donald J. Trump
Carey R. Dunne
New York County District Attorney's Office
One Hogan Place
New York, NY 10013
(212) 335-9000
d unnec@dany .nyc. gov

Counsel for Respondent
Cyrus R. Vance, Jr., in his official capacity as District
Attorney of the County of New York

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, J.D.

William Spencer Consovoy
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

Counsel for Petitioners
Donald J. Trump, et al.
Jerry D. Bernstein
Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020
(212) 885-5511
jbernstein@blankrome.com

Counsel for Respondent
Mazars USA, LLP
Douglas Neal Letter
Office of General Counsel
U.S. House of Representatives
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov

Counsel for Respondent
Committee on Oversight and Reform of the
U.S. House of Representatives

Pratik Arvind Shah
Akin Gump Strauss Hauer & Feld, LLP
2001 K Street N.W.
Washington, DC 20006
(202) 887-4210
pshah@akingump.com

Counsel for Respondent
Deutsche Bank AG
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(207) 522-3163
patrick@consovoymccarthy.com

Counsel for Petitioners
Donald J. Trump, et al.
James Alwin Murphy
Murphy & McGonigle, P.C.
1185 Avenue of the Americas
21st Floor
New York, NY 10036
(212) 880-3968
jmurphy@mmlawus.com

Counsel for Respondent
Capital One Financial Corporation

Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States
DENNIS GROSSMAN

Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 3, 2020.

Q_)Lt-

Julie A. Kershner.
Becker Gallagher
al Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

1

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

